                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: A09070068                                                                        Page 1 of 1



                 NSF OIG received an allegation that a PI, I whose awarded proposae involved work to be
          done in collaboration with another PI,3 changed the scope of his proposed work in such a way that it .
          no longer was in collaboration with the other PI's awarded proposa1. 4                               '


                  Our review noted that both awards had received independent funding and required
          independent annual reports. The respective program officers regularly accepted the annual
          reports, indicating the program officers were satisfied with the progress of the reported work.
                                                                         \


                    Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 (J 1102)
